 REVIEW OF CONGRESSIONAL EARMARKS
WITHIN DEPARTMENT OF TRANSPORTATION
             PROGRAMS
         Department of Transportation

         Report Number AV-2007-066
        Date Issued: September 7, 2007
U.S. Department of                      The Inspector General   Office of Inspector General
Transportation                                                  Washington, DC 20590
Office of the Secretary
of Transportation




September 7, 2007


The Honorable Tom Coburn
Ranking Member, Subcommittee on Federal Financial Management,
 Government Information, Federal Services, and International Security
Committee on Homeland Security and Governmental Affairs
United States Senate
Washington, DC 20510

Dear Senator Coburn:

We have enclosed the results of our review of congressional earmarks
within Department of Transportation (DOT) programs, which we
conducted in response to your request. Specifically, you asked that we
conduct an independent analysis of the cost, oversight, and impact of
congressional earmarks for the most recent fiscal year.

We determined the total number and dollar amount of congressional
earmarks within DOT programs for fiscal year 2006, the inclusion of
earmarks in DOT’s annual planning and evaluation process, and the effects
of earmarks on DOT’s mission and goals.

This report provides our analysis of selected programs within the Federal
Highway Administration, the Federal Transit Administration, and the
Federal Aviation Administration; these agencies accounted for 99 percent
of the earmarks (both in number and dollar amount) in DOT for fiscal year
2006.

We want to express our appreciation to the Department and the various
stakeholder organizations for their cooperation during this review.
                                                                               2

If I can answer any questions or be of further service, please contact me at
(202) 366-1959 or Todd J. Zinser, Deputy Inspector General, at (202)
366-6767.



Sincerely,




Calvin L. Scovel III
Inspector General


Enclosure (Report AV-2007-066)
                                        Table of Contents
Transmittal Letter

INTRODUCTION.................................................................................................. 1

EXECUTIVE OVERVIEW .................................................................................. 3

RESULTS ............................................................................................................... 6

   TOTAL NUMBER AND DOLLAR AMOUNT OF EARMARKS WITHIN DOT
   PROGRAMS FOR FY 2006 ..................................................................................... 6
   EARMARKS AND THE PLANNING AND EVALUATION PROCESSES ......................... 6
   EFFECTS OF EARMARKS ON DOT’S MISSION AND GOALS ................................. 10

EXHIBIT A. TOTAL NUMBER AND DOLLAR AMOUNT OF
EARMARKS BY PROGRAM WITHIN DOT FOR FY 2006 ........................ 15

EXHIBIT B. NUMBER OF FY 2006 EARMARKED PROJECTS THAT
BYPASSED ESTABLISHED REVIEW AND SELECTION PROCESSES
OR PLANNING AND PROGRAMMING PROCESSES................................ 16

EXHIBIT C. OIG ANALYSIS OF IMPACT OF EARMARKS ON
AGENCIES’ PROGRAMS ................................................................................. 17

EXHIBIT D. LIST OF STAKEHOLDERS INTERVIEWED ....................... 18

EXHIBIT E. OBJECTIVES, SCOPE AND METHODOLOGY, AND
RELATED AUDIT COVERAGE ...................................................................... 19
                                                                                                                    1


INTRODUCTION
Over the past year, there has been considerable interest and debate over
congressional earmarks. According to the Government Accountability Office, an
earmark is a congressional directive in legislation to a Federal agency to spend a
specific amount of its budget for a specific entity, project, or service. Earmarking
differs from the general appropriations process where Congress grants a lump sum
to an agency to distribute according to the agency’s authorized, transparent,
statutory criteria and merit-based decision-making processes.1

In a memorandum published in January 2006, the Congressional Research Service
reported that during the 10-year period from fiscal year (FY) 1996 to FY 2005, the
number of earmarks within Department of Transportation (DOT) appropriations
acts and accompanying conference reports increased by more than
1,150 percent—from 167 earmarks in FY 1996 to 2,094 earmarks in FY 2005.
The amount of dollars earmarked also increased by more than 314 percent—from
$789 million in FY 1996 to about $3.27 billion in FY 2005 (see figure). Although
down in numbers from FY 2005, DOT’s FY 2006 appropriations2 included
1,582 earmarks, of which 1,516 were specifically identified in the conference
report3 accompanying the act.

                 Figure. Summary of Earmarks Within DOT Appropriations
                                Fiscal Years 1996-2005*
                        2500                                                         4
                                                                     3.36
                                                                             3.27
                                                         3.22
                        2000                                                         3
                                                                    2,282
           No. of                                                            2,094
          Earmarks      1500                                                                   Dollars
                                                            1,493                    2
                                        1.23     1.28                                        Earmarked
                        1000                                                                ( in billions)
                               0.789                                                 1
                         500
                                                  641
                                167      147
                           0                                                         0

                                1996     1998     2000     2002     2004     2005


                                                Fiscal Years

    *Number and valuation of earmarks do not include earmarks contained in authorization acts for these years.
    Source: Congressional Research Service



1
    U.S. Government Accountability Office, Office of the General Counsel, Principles of Federal Appropriations Law
    3rd Edition, (February 2006), vol. 2.
2
    Transportation, Treasury, and Housing and Urban Development, the Judiciary, District of Columbia, and
    Independent Agencies Appropriations Act, 2006 Pub. L. No. 109-115.
3
    Conference Report 109-307, dated November 18, 2005. Explanatory statements within conference reports do not
    have the full force of the law, but they explain the intent of the bill language for the guidance of the executive
    agencies.


Introduction
                                                                                                                 2

Not only do earmarks originate in the appropriation process, but they also enter the
process through program authorizations.4 Recent DOT re-authorizations have
included a significant number of specific projects with associated funding directed
to specific state and local agencies or locations. For example, the current DOT
authorization for surface transportation, the Safe, Accountable, Flexible, Efficient
Transportation Equity Act: A Legacy for Users (SAFETEA-LU),5 accounted for
6,474 (80 percent) of DOT’s 8,056 earmarked projects for FY 2006. As with most
DOT program authorizations, SAFETEA-LU is a multi-year (5 years—from
FY 2005 to FY 2009) authorization with specified percentages of appropriated
funds authorized each year for the given agencies, programs, and activities.

In August 2006, Senator Coburn—then Chairman of the Senate Subcommittee on
Federal Financial Management, Government Information, Federal Services, and
International Security—requested that we conduct an independent analysis of the
cost, oversight, and impact of congressional earmarks. As Senator Coburn
requested, we defined an earmark as a provision of law, directive, or an item
represented in any table, chart, or text contained within a joint explanatory
statement or a report accompanying an appropriations or authorization bill that
identifies an entity, a program, project, or service and the amount of assistance the
Federal agency is to provide.

Consistent with Senator Coburn’s request, we determined (1) the total number and
amount of earmarks within DOT for FY 2006, (2) the inclusion of earmarks in
DOT’s annual planning and project evaluation processes, and (3) the effects of
earmarks on DOT’s mission and goals.

We focused our analysis on earmarks within DOT’s programs administered by the
Federal Highway Administration (FHWA), Federal Transit Administration (FTA),
and Federal Aviation Administration (FAA), because these three Operating
Administrations accounted for 99 percent of the earmarks for FY 2006 (both in
number and dollar amount) in DOT. Exhibits A through E provide details on: (A)
the total number and dollar amount of earmarks by program with DOT for
FY 2006; (B) earmarked projects that bypassed established selection and review
processes or planning and programming processes; (C) our analysis of earmarks’
impact on agencies’ programs; (D) stakeholders interviewed; and (E) our
objectives, scope and methodology, and related audits. We conducted this review
between December 2006 and August 2007, in accordance with generally accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States.

4
    Authorizing legislation directs the enactment of appropriations of specific amounts for specific programs and
    activities to be provided in appropriation acts. Normally, an authorization of appropriation legislation is a
    prerequisite for making appropriations for the given program or agency (see GAO-05-734SP, Budget Glossary, page
    19 of 182).
5
    SAFETEA-LU, Pub. L. No. 109-59 (2005).


Introduction
                                                                                                               3

In February 2007, the President signed a joint resolution6 passed by Congress that
provided appropriations for FY 2007 with a moratorium on earmarks. Section 112
of this joint resolution states that “any language specifying an earmark in a
committee report or statements of managers accompanying an appropriations act
for FY 2006 shall have no legal effect with respect to funds appropriated” under
the joint resolution.

The Office of Management and Budget has taken steps to enforce the joint
resolution by requiring that Federal agencies only fund projects or activities that
are “specifically identified in statutory text” and “in accordance with authorizing
law, using statutory criteria, such as funding formulas, eligibility standards, and
merit-based decision-making.”7

EXECUTIVE OVERVIEW
Overall, we identified 8,056 earmarked projects within the Department’s programs
that received more than $8.54 billion for FY 2006 (see exhibit A).8 Of the
8,056 earmarked projects for FY 2006:

    • 66 earmarked projects were specified in the text of the appropriation act.
    • 1,516 earmarked projects were specified in the conference report
      accompanying the appropriation act.
    • 6,474 earmarked projects were identified in the appropriation act’s
      accompanying conference report sections referring to distribution of FY 2006
      authorized funding as directed by SAFETEA-LU.

FHWA, FTA, and FAA accounted for 99 percent of these earmarked projects,
both in number (8,011 of the 8,056 projects) and dollar amount (about
$8.49 billion of the more than $8.54 billion). FHWA had the highest number of
earmarked projects at 6,556, and FTA had the highest percentage of its FY 2006
appropriation earmarked at 28 percent.

Generally, before a capital or research project can receive DOT funding, either
discretionary or formula, it must be the product of a planning process. Planning
for highway, transit, and airport improvement projects takes place at the local,
state, or Federal levels. For highway and transit projects, each metropolitan
planning organization (MPO), in cooperation with the state and public
6
    Revised Continuing Appropriations Resolution, 2007, Pub. L. No. 110-5.
7
    Office of Management and Budget Director, memorandum to the heads of departments and agencies, 15 February
    2007.
8
    Number and amount of earmarks identified in DOT appropriation and accompanying conference report for FY 2006.
    Dollar amounts reflect funding levels prior to the Government-wide, 1-percent rescission enacted in DOD
    Emergency Supplemental Appropriations to Address Hurricanes in the Gulf of Mexico and Pandemic Influenza Act,
    2006, Pub. L. No. 109-148.


Executive Overview
                                                                                                                            4

transportation operators, must develop a long-range transportation plan and a
short-range transportation program for the urbanized areas within the state.
Integral to the planning process is an evaluation of factors such as a project’s
enhancement of mobility, maximization of safety and security, relief of
congestion, financial viability, and protection of the environment. The planning
process culminates in a list of projects to be funded within 4 years.

To be eligible for Federal funds, a project must be part of the Transportation
Improvement Program (TIP), which is approved by the MPO and the Governor,
and the State’s Transportation Improvement Program (STIP), which is approved
by the Governor, FHWA, and FTA. Subsequent to the planning process, FHWA
and FTA select projects to receive discretionary grants based on their merits as
reflected in the transportation plans. For formula grants, the states make the
selections based on their priorities and in cooperation with the MPOs and local
officials.

To be considered for funding under the Airport Improvement Program (AIP), a
project would be part of the national Airport Capital Improvement Plan (ACIP),
which is formulated by FAA in cooperation with states, planning agencies, and
airport sponsors. In all cases, the planning process culminates in a list of priority
projects to be funded within a given time frame.

However, our review of 7,760 earmarked projects valued at $8.05 billion within
FHWA, FTA, and FAA programs disclosed that 7,724 of the 7,760 projects
(99 percent) either were not subject to the agencies’ review and selection
processes or bypassed the states’ normal planning and programming processes.
For example, 125 AIP projects, totaling almost $201 million, were earmarked for
FY 2006. Of the 125 earmarked projects, 72 (about 58 percent),9 totaling
$132.4 million, were on FAA’s list of candidates to receive AIP funds for critical
airport planning and development projects—the remaining 53 projects were not.
These 53 projects, totaling about $68.5 million, would not have been considered
for funding in FY 2006 if they had not received earmarks.

There were earmarked projects we reviewed that were evaluated as “highest”
priority projects and would have been fully funded regardless of being earmarked.
For example, the New Starts Program is the Federal Government’s primary
financial resource for supporting locally planned, implemented, and operated
transit fixed “guideway” systems.10 From heavy to light rail, from commuter rail

9
     Although these projects were on FAA’s AIP list of candidates, there is no guarantee that these projects would have
     been funded had they not been earmarked.
10
     A “fixed guideway” refers to any transit service that uses exclusive or controlled rights-of-way or rails, entirely or in
     part. The term includes heavy rail, commuter rail, light rail, monorail, trolleybus, aerial tramway, inclined plane,
     cable car, automated guideway transit, ferryboats, that portion of motor bus service operated on exclusive or
     controlled rights-of-way, and high-occupancy-vehicle (HOV) lanes.


Executive Overview
                                                                                                        5

to bus rapid transit systems, these projects have improved the mobility of millions
of Americans; helped to improve air quality; and fostered the development of
more viable, safe, and livable communities.

However, earmarks may not be the most effective or efficient use of funds on
programs within FHWA, FTA, and FAA. Many earmarked projects considered by
the agencies as low priority are being funded over higher priority, non-earmarked
projects. For example, for FY 2006, FAA considered 9 of the 10 new earmarked
projects, totaling $31.5 million, in its Tower/Terminal Air Traffic Control Facility
Replacement Program within the Facilities and Equipment account to be low
priority projects that would not have received funding without the earmarks.
Funding these new low priority projects in FY 2006 added to the already
substantial backlog of replacement projects from earmarks in prior fiscal years and
caused FAA to delay the planning of its higher priority replacement projects by at
least 3 years.

Some earmarks are providing funds for projects that would otherwise be ineligible.
For example, for FY 2006, 16 of 65 earmarked projects, totaling more than
$14 million, in FHWA’s Interstate Maintenance Discretionary Program did not
meet statutory program criteria and would not have received funding were it not
for a section in DOT’s appropriations law11 that allows funding for earmarks that
do not meet the statutory requirements of the program.




11
     Transportation, Treasury, and Housing and Urban Development, the Judiciary, District of Columbia, and
     Independent Agencies Appropriations Act, Pub. L. No. 109-115 § 113.


Executive Overview
                                                                                                              6


RESULTS

Total Number and Dollar Amount of Earmarks Within DOT Programs
for FY 2006
For FY 2006, there were 8,056 earmarks within DOT programs with a total
amount of more than $8.54 billion, or over 13 percent of DOT’s appropriation. As
shown in table 1, FHWA, FTA, and FAA accounted for 99 percent of these
earmarks both in number (8,012 of the 8,056) and dollar amount (about
$8.49 billion of the more than $8.54 billion). The percentage of budgets
earmarked ranged from a high of 28 percent at FTA to a low of 2.83 percent at
FAA.

     Table 1. Number and Amount of Earmarks Within DOT for FY 2006
       Operating         Total Number of      Total Amount of        Total FY 2006            Percentage of
     Administration\a       Earmarks             Earmarks            Appropriation              FY 2006
                                                                                              Appropriation
                                                                                               Earmarked
 FHWA                           6,556            $5,675,100,200         $36,648,886,903            15.49%
 FTA                            1,252            $2,405,673,150          $8,590,365,000            28.00%
 FAA                              204              $408,340,000         $14,414,000,000             2.83%
      Sub-total                 8,012            $8,489,113,350         $59,653,251,903            14.23%
 All Others                        44               $55,890,000          $3,795,558,000             1.47%
        Total                   8,056            $8,545,003,350         $63,448,809,903            13.47%
\a
     Exhibit A details the number and amount of earmarks within FHWA, FTA, and FAA programs for FY 2006.
     Source: DOT-OIG

The cost of administering earmarks is not included in table 1. We were unable to
quantify such costs because the Operating Administrations do not separately track
the cost of administering earmarked projects. However, program officials we
spoke with in FHWA, FTA, FAA, and the Office of the Secretary all agreed that
there are additional costs associated with administering earmarked projects, such
as the additional staff time needed to review projects that are not normally eligible
for Federal funding.

Earmarks and the Planning and Evaluation Processes
We reviewed 27 of 54 programs subject to earmarks within FHWA, FTA, and
FAA and found that 7,724 of the 7,760 (99 percent) earmarked projects for FY
2006 bypassed the agencies’ review and selection processes or states’ planning
and programming processes (see table 2).




Results
                                                                                                                        7

Table 2. Number of Earmarked Projects Bypassing Agencies’ Review
   and Selection Processes or States’ Planning and Programming
                            Processes
         OA             No. of           No. of              Amount of           No. of Earmarks Not Subject
                      Programs          Earmarks             Earmarks            to the Agencies’ Authority To
                               \a       Reviewed             Reviewed              Review and Select Projects
                      Reviewed
                                                                                         Based on Merit
  FHWA                      7                260            $1,176,278,000                       260
  FTA                       3              1,209            $2,357,688,150                     1,175
  FAA                      12                182              $311,690,000                       180
      Subtotal             22              1,651            $3,845,656,150                     1,615
                                                                                    No. of Earmarks That
                                                                                 Bypassed the States’ Normal
                                                                                 Planning and Programming
                                                                                           Processes
  FHWA                      5              6,109            $4,202,447,200                     6,109
     Grand Total           27              7,760            $8,048,103,350                     7,724
\a
      Exhibit B details by program earmarked projects that were either not subject to FHWA, FTA and FAA’s
      statutory authority to award capital and research grants based on merit or bypassed the states’ normal planning
      and programming processes.
      Source: DOT-OIG

To illustrate:

 • 1,615 of the 7,724 of the earmarks, valued at more than $3.8 billion, were not
   subject to FHWA, FTA, and FAA’s authority to review and select projects
   based on merit.

      Under Federal statute, FHWA, FTA, and FAA have the authority to award
      grants for capital and research projects using discretionary funds. Normally,
      these DOT agencies would award a grant only after the project had been
      through planning and evaluation at the local, state, or Federal levels. For
      example, a candidate for a highway or transit capital grant would be the
      product of the metropolitan and state-wide planning process and part of the TIP
      and the STIP. A candidate for an AIP grant would be part of the national
      ACIP, which is formulated by FAA in cooperation with states, planning
      agencies, and airport sponsors. In all cases, the planning process culminates in
      a list of priority projects to be funded within a given time frame. Subsequent
      to planning, FHWA, FTA, and FAA would select a project to receive a grant
      after a review and evaluation of criteria established to identify and rank the
      most meritorious projects.

      Planning for research takes place within each of the three agencies in dialogue
      with transportation leaders and university researchers and in accordance with


Results
                                                                                                                         8

       the agencies’ strategic goals and objectives. The preferred method for
       selecting research projects is through open competition and an evaluation by
       peers.

     • 6,109 of the 7,724 of the earmarks, valued at about $4.2 billion, bypassed the
       states’ normal planning and programming processes.

       In addition to discretionary funds, FHWA, FTA, and FAA apportion funds to
       states and their subdivisions based on formulas prescribed by law (often
       referred to as formula funds). For example, FHWA apportions funds for the
       Surface Transportation Program based on total lane miles of Federal-aid
       highways (25 percent), total vehicle miles traveled on Federal-aid highways
       (40 percent), and estimated tax payments attributable to highway users paid
       into the Highway Account of the Highway Trust Fund (35 percent).

       In order for the funds to be eligible for use by the states, projects must undergo
       the states’ normal planning and programming processes and be included in the
       STIP. Agencies provide the formula funds to the states, and the decision on
       how to spend formula funds are made at the state and local level,12 not by the
       agencies, although those decisions are subject to their review.

Earmarked projects we reviewed, however, either were not subject to the agencies’
expertise and normal authority to select projects for funding after a review and
evaluation of a project’s merit, rank, and priority or bypassed the states’ normal
planning and programming processes as demonstrated in the following examples.

     • FHWA’s National Corridor Infrastructure Improvement Program: This
       program was established under SAFETEA-LU to provide funds for
       construction of highway projects in corridors of national significance to
       promote economic growth and international or interregional trade. For
       FY 2006, all 33 of the program’s earmarked projects, totaling about
       $389.6 million, bypassed the Agency’s review, approval, or merit-based
       selection processes. While projects were not selected based on merit, the states
       were still required to submit an application to FHWA identifying the project’s
       purpose, eligibility, scope of work, proposed schedule, cost estimates, and all
       funding sources in order to receive the earmarked funds.

     • FHWA’s Public Lands Highways Discretionary Program: This program was
       established to improve access to and within the Nation’s Federal lands. For
       FY 2006, all 77 of the program’s earmarked projects, totaling about
       $95.2 million, bypassed the Agency’s review, approval, or selection processes.

12
     23 U.S.C. 145 states that the authorization of the appropriation of Federal funds . . . under this chapter shall in no
     way infringe on the sovereign rights of the states to determine which projects shall be federally financed.


Results
                                                                                 9

   Again, while these projects were not selected based on merit, the states were
   still required to submit an application to FHWA identifying the project’s
   proposed work, purpose and benefits, schedule, and amount of Federal funds
   requested in order to use these earmarked funds.

 • FTA’s National Research Program: FTA’s research delivers solutions to
   improve public transportation. FTA’s National Research Program is one
   program over the last 10 years in which the majority of projects have been
   earmarked, thereby bypassing the established planning and evaluation process
   put in place by FTA. For FY 2006, $40.8 million (74 percent) of the
   Program’s funding was earmarked to 46 projects. These 46 projects, however,
   did not have to go through the planning and evaluation process by meeting
   eligibility criteria; being selected through an open competition; and, finally,
   being evaluated by peers. As part of the open competition, proposals are
   submitted to FTA where they are evaluated by in-house experts to ensure the
   project (1) fills a need, (2) is not being carried out by other projects or
   organizations, and (3) supports the attainment of FTA’s strategic research
   goals.

 • FTA’s Bus and Bus Facilities Program: This program makes funds available
   to public transit providers to replace, rehabilitate, and purchase buses and
   related equipment and to construct bus-related projects. Congress has
   earmarked the program for more than 10 years (since 1995). As a result, FTA
   did not have the opportunity to select bus and bus facility projects based on
   merit. For FY 2006, Congress earmarked $813.9 million of the $847.5 million
   appropriated (96 percent) for 1,097 projects. According to FTA, because
   Congress has been earmarking bus funds for many years and the
   Administration’s reauthorization proposal included the formularization of the
   bus program, FTA no longer had a mechanism in place to select bus and bus
   facility projects. However, program officials commented that FTA would
   establish a systematic mechanism to rank and rate projects if the Agency had
   this responsibility. As a result of a joint resolution passed by Congress that
   provided appropriations for FY 2007 with a moratorium on earmarks, FTA
   implemented criteria to rank bus and bus facility projects because
   congressional earmarks covered only a little more than half of the $882 million
   available for the program.

 • FAA’s Airport Improvement Program: This program provides funds for
   projects that plan for and develop a safe and efficient national airport system.
   For FY 2006, 125 AIP projects were earmarked totaling almost $201 million.
   We found that of 125 earmarked projects, 72 (about 58 percent), totaling about
   $132.4 million, were on FAA’s AIP list of candidates to receive funding for
   critical airport planning and development projects—the remaining 53 were not.


Results
                                                                                 10

   These 53 projects, totaling about $68.5 million, would not have been
   considered for funding if they had not received earmarks.

Effects of Earmarks on DOT’s Mission and Goals
The Department’s mission states:

     The national objectives of general welfare, economic growth and stability,
     and the security of the United States require the development of
     transportation policies and programs that contribute to providing fast, safe,
     efficient, and convenient transportation at the lowest cost consistent with
     those and other national objectives, including the efficient use and
     conservation of the resources of the United States.

The Department has established five strategic goals for achieving its mission:

 • Safety: Enhance public health and safety by working toward the elimination
   of transportation-related deaths and injuries.
 • Reduced Congestion: Reduce congestion and other impediments to using the
   Nation’s transportation system.
 • Global Connectivity: Facilitate an international transportation system that
   promotes economic growth and development.
 • Environmental Stewardship: Promote transportation solutions that enhance
   communities and protect the natural and built environment.
 • Security, Preparedness, and Response: Balance transportation security
   requirements with the safety, mobility, and economic needs of the Nation and
   be prepared to respond to emergencies that affect the viability of the
   transportation sector.

With more than 8,000 projects earmarked for FY 2006, it would not have been
practical for us to determine the effect of each earmark on DOT’s mission and
goals. Instead, we limited our review to selected earmarked projects in the
27 programs and identified in the following manner the effects that earmarks have
on DOT’s mission and goals:

 • There were earmarked projects reviewed that were evaluated as “highest”
   priority projects and would have been fully funded regardless of being
   earmarked.

   For example, the New Starts Program is the Federal Government’s primary
   financial resource for supporting locally planned, implemented, and operated
   transit fixed “guideway” systems. From heavy to light rail, from commuter rail
   to bus rapid transit systems, these projects aim to improve the mobility of


Results
                                                                                11

   millions of Americans; help to improve air quality; and foster the development
   of more viable, safe, and livable communities. Except for a small portion,
   (32 of the 66 projects representing $130.5 million of the $1.5 billion in
   earmarks for FY 2006), New Starts projects have been through a rigorous
   planning and evaluation process.

 • At the same time, other earmarked projects would have been considered
   necessary although not high priority and would have been fully or partially
   funded even if they had not been earmarked.

   For example, for FY 2006, Congress earmarked more than 1,000 bus and bus
   facility projects totaling almost $814 million. According to FTA program
   officials, more than 90 percent of these projects are necessary and arise out of
   the local planning process. At an operational level, communities always need
   to purchase buses to support transit service. Because formula money is never
   enough to meet transit needs, communities need an infusion of additional funds
   to fulfill this role.

 • However, we have identified at least five ways in which earmarks impact
   programs within FHWA, FTA, and FAA (see exhibit C for the types of impact
   that earmarked projects have on FHWA, FTA, and FAA programs).

   First, earmarks can reduce funding for the states’ core transportation
   programs. For example, according to FHWA officials, funding for three
   earmarked programs (High Priority Projects, Highway Priority Projects, and
   Surface Transportation Projects) reduced apportionments to the states for core
   transportation programs. For FY 2006, Congress earmarked over
   5,600 projects valued at over $3.5 billion in these 3 programs—almost
   10 percent of FHWA’s annual budget. Based on discussions with state
   officials, FHWA officials believed many of these projects would not have been
   high priority candidates for funding under the states’ formula programs.
   However, FHWA was required to fund the projects because they were
   earmarked thereby reducing states’ apportionments by $3.5 billion.

   Second, earmarks do not always coincide with DOT strategic research
   goals. For example, FTA has five research goals to support its research
   mission to deliver solutions to improve public transportation. These goals
   include (1) providing transit research leadership, (2) increasing transit
   ridership, (3) improving capital and operating efficiencies, (4) improving
   safety and emergency preparedness, and (5) protecting the environment and
   promoting energy independence. For FY 2006, we found that all 46 earmarked
   projects, valued at about $40.8 million, in FTA’s National Research Program
   did not address the first goal and only partially addressed goals 2 through 4.



Results
                                                                                                                      12

       Third, many low priority, earmarked projects are being funded over
       higher priority, non-earmarked projects. For example, for FY 2006, FAA
       considered 9 of the 10 new earmarked projects, totaling $31.5 million, in its
       Tower/Terminal Air Traffic Control Facility Replacement Program within the
       Facilities and Equipment account to be low priority projects that would not
       have received funding without the earmark. These new projects have added to
       the already substantial backlog of replacement projects from earmarks in prior
       fiscal years and have caused FAA to delay the planning of its higher priority
       replacement projects by at least 3 years.

       Earmarks for FAA’s Instrument Landing Systems (ILS) Program within the
       Facilities and Equipment account represent another example of low, rather than
       high, priority projects receiving funds. For FY 2006, Congress earmarked
       almost $11.7 million for 15 ILS projects. Of the 15 ILS earmarks, 8 were for
       new projects and 7 were for projects receiving earmarks in prior years.
       According to FAA officials, the Agency would not have selected any of the
       15 earmarks to receive funds because none of the earmarked projects would
       have met FAA’s requirements for selecting a project, such as the requirement
       that a project’s benefits are equal to or greater than its costs.

       In another example, 36 of 77 earmarked projects for FY 2006 in FHWA’s
       Public Lands Highways Discretionary program, totaling $37.6 million, would
       not have been given high priority funding because the projects were not in 1 of
       the 11 states containing at least 3 percent of the total public land area in the
       United States in accordance with requirements found in Title 23 of the United
       States Code. Funding preference is generally given to those 11 states that
       contain at least 3 percent of the total public lands in the United States.

       Fourth, earmarks provide funds for projects that would otherwise be
       ineligible. For example, for FY 2006, 16 of 65 earmarked projects in FHWA’s
       Interstate Maintenance Discretionary Program, totaling more than $14 million,
       did not meet statutory program criteria and would not have received funding if
       not for Section 113 of DOT’s appropriations law13 that allows funding for
       earmarks that do not meet the statutory requirements of a program.

       Also, for FY 2006, 4 of 25 earmarked projects totaling $28 million in FHWA’s
       Projects of National and Regional Significance Program did not meet statutory
       criteria. Typically, project costs must exceed $500 million or be 75 percent of
       the amount of Federal Highway funds apportioned to the state in which the
       project is located for the most recently completed fiscal year. None of the four
13
     Section 113 of Pub. L. No. 109-115 states that “notwithstanding any other provision of law, projects and activities
     described in the statement of managers . . . under the headings ‘Federal-Aid Highways’ and ‘Federal Transit
     Administration’ shall be eligible for fiscal year 2006 funds made available for the project for which each project or
     activity is so designated.”


Results
                                                                                 13

   projects met these criteria. However, a provision in SAFETEA-LU for this
   program directs that funds be allocated for these projects notwithstanding the
   program criteria set forth elsewhere in the statute for the program.

   Other examples of ineligible projects that received earmarks are in FTA’s Bus
   and Bus Facilities Program. To be eligible, a bus or bus facility project must
   be for transit purposes. Nevertheless, projects without a transit connection
   received earmarks for one of two reasons: the earmark was either written
   specifically into legislation or into the Conference Report, and the Section 113
   eligibility provision was applied. For example:

    - Bus category transit funds were earmarked to fund two intermodal facilities
      that do not have a transit connection. In the first case, project
      documentation indicates that the funds were for a “general purpose
      container dock, rail facilities, and necessary rolling stock and storage
      area…providing for the operation of a fully integrated container handling
      facility.” In the second case, documentation indicates that the funds were
      intended to restore the exterior of a former railway depot to its original
      configuration and refurbish the interior to house a historical museum and
      office facilities. FTA was compelled to fund the first project because of the
      Section 113 eligibility provision and the second project because it was
      written into law.

    - FTA declined to fund an FY 2005 earmark for a park-and-ride facility that
      Congress intended for use as a parking garage at a local hospital, an
      ineligible use of Federal transit funds. In the FY 2006 Department of
      Transportation Appropriation Act, Congress directed that funds originally
      available for the park-and-ride facility be made available to the hospital for
      the parking garage. A transit connection does not exist, but FTA funded
      the earmark because it was written into law.

   Fifth, earmarks can disrupt the agency’s ability to fund programs as
   designated when authorized funding amounts are exceeded by over-
   earmarking. In SAFETEA-LU, earmarks actually exceeded the authorized
   funding levels for three of the five FHWA research programs for FY 2006,
   resulting in across-the-board program cuts to stay within authorized funding
   levels for each of the three programs.

    - The Surface Transportation Research, Development, and Deployment
      Program (STRDD) was earmarked at $234 million but only authorized
      funding of $196.4 million for FY 2006. This resulted in a 16.36-percent cut
      in all STRDD programs without a prescribed method to make the cuts.




Results
                                                                              14

     - The University Transportation Research Program included $76.4 million in
       earmarks with an authorized funding level of $69.7 million for FY 2006.
       This resulted in an 8.77-percent cut in the University Transportation
       Research Program without a prescribed method to make the cuts.

     - The Training and Education program had $27.65 million in earmarks but
       was authorized only $26.7 million for FY 2006. This resulted in a
       3.44-percent cut in the Training and Education program without a
       prescribed method to make the cuts.

We are not making any recommendations in this report as the nature of this review
was to conduct an independent analysis of the cost, oversight, and impact of
congressional earmarks for the most recent fiscal year. On August 16, 2007, a
copy of this report was provided to officials from the Department and the
Operating Administrations for comment. Their comments were considered in
finalizing our report.




Results
                                                                                                           15


EXHIBIT A. TOTAL NUMBER AND DOLLAR AMOUNT OF
EARMARKS BY PROGRAM WITHIN DOT FOR FY 2006
               Operating Administration                  Total Number of             Total Amount of
                                                            Earmarks                    Earmarks
                    FHWA Programs
    Projects of National and Regional Significance                25                    $355,800,000
    National Corridor Infrastructure Improvement                 33                     $389,600,000
    Freight Intermodal Distribution Pilot Grant                   6                       $6,000,000
    High Priority Projects                                      5,091                  $2,966,400,000
    Transportation Improvement Projects                          466                    $511,047,200
    Stand Alone Projects                                          12                     $43,950,000
    Bridge Set-Asides                                             9                     $100,000,000
    Surface Transportation Research, Development, and
    Deployment (STRDD)¹                                           43                    $234,803,000
    Highway Priority Projects                                     24                     $25,000,000
    Surface Transportation Projects                              519                    $600,000,000
    Interstate Maintenance Discretionary Program                  65                    $100,000,000
    Public Lands Highways Discretionary                           77                    $95,200,000
    Ferry Boats Discretionary                                     26                    $35,000,000
    Training and Education²                                       7                     $27,650,000
    University Transportation Research³                           52                    $76,400,000
    Intelligent Transportation Systems                            3                     $13,000,000
    Bureau of Transportation Statistics                            1                      $500,000
    Transportation and Community and System                       94                    $61,250,000
    Preservation
    Appalachian Development Highway System                        1                     $20,000,000
    Other Transportation Projects                                 2                     $13,500,000
    Subtotal                                                    6,556                  $5,675,100,200
                     FTA Programs
    Bus and Bus Facilities                                      1097                    $813,903,150
    New Starts                                                    66                   $1,503,000,000
    National Research                                             46                    $40,785,000
    University Transportation Centers                             8                      $7,000,000
    National Transit Institute                                     1                     $4,300,000
    Alternative Analysis                                          18                    $18,900,000
    Clean Fuels                                                   16                    $17,785,000
    Subtotal                                                    1,252                  $2,405,673,150
                      FAA Accounts
    Operations                                                   13                     $28,995,000
    Facilities & Equipment (F&E)                                 52                     $169,200,000
    Grants-In-Aid for Airports                                   125                    $200,900,000
    Research, Engineering, and Development                       14                      $9,245,000
    Subtotal                                                     204                    $408,340,000
             Other OA Program Subtotals                          44                    $55,890,000
                                  Grand Total                   8,056                 $8,545,003,350
¹   STRDD designations in SAFETEA-LU exceeded the authorized funding level of $196.4 million for FY 2006
    through FY 2009 (in FY 2006 by $38.4 million, requiring a 16.355-percent cut in all STRDD programs).
²   The T&E program also had $27.65 million in “earmarks” but was authorized at only $26.7 million, requiring a
    3.436-percent cut in all T&E programs.
³   University Transportation Research program included $76.4 million in “earmarks” but was authorized at only
    $69.7 million, requiring an 8.770-percent cut in all University Transportation Research programs.
    Source: DOT-OIG




Exhibit A. Total Number and Dollar Amount of Earmarks by Program Within DOT
for FY 2006
                                                                                                16


 EXHIBIT B. NUMBER OF FY 2006 EARMARKED PROJECTS
 THAT BYPASSED ESTABLISHED REVIEW AND SELECTION
 PROCESSES OR PLANNING AND PROGRAMMING PROCESSES
   OA Program or             No. of     Amount of         No. of Earmarks      No. of Earmarks That
   Account Name             Earmarks    Earmarks         That Bypassed the     Bypassed the States’
                            Reviewed    Reviewed        Agencies’ Authority    Normal Planning and
                                                        To Review and Select       Programming
                                                         Projects Based on            Processes
                                                               Merit
  FHWA Programs
 Projects of National and
 Regional Significance
                               25      $355,800,000              25
 National Corridor
 Infrastructure
 Improvement                   33      $389,600,000              33
 Freight Intermodal
 Distribution Pilot Grant      6        $6,000,000               6
 Interstate Maintenance
 Discretionary Program         65      $100,000,000              65
 Public Lands Highways
 Discretionary                 77       $95,200,000              77
 Ferry Boats
 Discretionary Program         26       $35,000,000              26
 Surface Transportation
 Research,
 Development, and
 Deployment                    28      $194,678,000              28
 Highway Priority
 Projects                      24       $25,000,000                                     24
 Surface Transportation
 Projects                      519      $600,000,000                                   519
 High Priority Projects       5,091    $2,966,400,000                                 5,091
 Transportation
 Improvement Projects         466      $511,047,200                                    466
 Bridge Set-Asides             9       $100,000,000                                     9

 Subtotal                     6,369    $5,378,725,200           260                   6,109
    FTA Programs
 Bus and Bus Facilities       1,097     $813,903,150           1,097
 New Starts                     66     $1,503,000,000           32
 National Research              46      $40,785,000              46
 Subtotal                     1,209    $2,357,688,150          1,175
    FAA Accounts
 Operations                    13       $28,995,000              12
 Facilities & Equipment
 (F&E)                         30       $72,550,000              29
 Grants-In-Aid for
 Airports                     125      $200,900,000             125
 Research, Engineering,
 and Development                14       $9,245,000              14
 Subtotal                      182      $311,690,000            180
     Grand Total              7,760    $8,048,103,350          1,615                  6,109
Source: DOT OIG



 Exhibit B. Number of FY 2006 Earmarked Projects That Bypassed Established
 Review and Selection Processes or Planning and Programming Processes
                                                                                                              17



EXHIBIT C. OIG ANALYSIS OF IMPACT OF EARMARKS ON
AGENCIES’ PROGRAMS
    OA Program Names                 Earmarks             Earmarks           Many Low Priority          Some Earmark
                                      Reduce              Coincide          Earmarked Projects           Projects Are
                                   Funding for the        With OA’s          Are Being Funded           Being Funded
                                    States’ Core          Strategic         Over Higher Priority         That Would
                                   Transportation         Research               Projects                Otherwise Be
                                     Programs               Goals                                         Ineligible\d
           FHWA
Projects of National and
Regional Significance                         No                                         Unknown\c                 Yes
National Corridor Infrastructure
Improvement                                   No                                          Unknown              Unknown
Freight Intermodal Distribution
Pilot Grant                                   No                                          Unknown              Unknown
High Priority Projects                       Yes\a                                           Yes\e                 Yes
Transportation Improvements                   No                                             Yes\e                 Yes
Bridge Set-Asides\b                           No
Surface Transportation Research,
Development, and Deployment                   No                    Yes                      Yes                    No
Highway Priority Projects                    Yes                                             Yes\e                 Yes
Surface Transportation Projects              Yes                                             Yes\e                 Yes
Interstate Maintenance
Discretionary Program                         No                                             Yes\e                 Yes
Public Lands Highways
Discretionary                                 No                                             Yes\e                 Yes
Ferry Boats & Ferry Terminal
Facilities                                    No                                             Yes\e                 Yes
               FTA
Bus and Bus Facilities                                                                    Unknown                  Yes
New Starts                                                                                   Yes                   Yes
National Research                             No                    No                       Yes                   Yes
               FAA
Operations                                                                                    No                    No
Facilities & Equipment (F&E)                                                                 Yes                    No
Grants-In-Aid for Airports                    No                                             Yes                    No
Research, Engineering, and
Development                                                         Yes                      Yes                    No
Shaded areas = not applicable
\a
   The amount of High Priority Projects (HPP) funding a state receives is considered in the calculation of the state’s
   equity bonus apportionment. For most states, the receipt of HPP funds reduces the amount of its equity bonus
   funding.
\b
   According to FHWA officials, there are no eligibility requirements for this program. Rather, the statute expressly
   designates projects.
\c
   Unknown = Unknown to agency officials.
\d
   Some projects may not meet eligibility requirements of the specific program from which funding is available or they
   may mot meet other Title 23 eligibility requirements.
\e
   Based on agency officials’ understanding of state priorities for surface transportation funding.
Source: DOT-OIG




Exhibit C. OIG Analysis of Impact of Earmarks on Agencies’ Programs
                                                                         18


EXHIBIT D. LIST OF STAKEHOLDERS INTERVIEWED
U.S. Department of Transportation Agencies

Office of the Secretary (OST)
Federal Aviation Administration (FAA)
Federal Highway Administration (FHWA)
Federal Motor Carrier Safety Administration (FMCSA)
Federal Railway Administration (FRA)
Federal Transit Administration (FTA)
Maritime Administration (MARAD)
National Highway Traffic Safety Administration (NHTSA)
Office of Inspector General (OIG)
Pipeline and Hazardous Materials Safety Administration (PHMSA)
Research and Innovative Technology Administration (RITA)
Saint Lawrence Seaway Development Corporation (SLSDC)
Surface Transportation Board (STB)
Other Stakeholders Interviewed

American Association of State Highway and Transportation Officials (AASHTO)
Association of Metropolitan Planning Organizations (AMPO)
Air Transport Association (ATA)
American Trucking Association (ATA)
Aircraft Owners and Pilots Association (AOPA)
American Association of Airport Executives (AAAE)
Airports Council International – North America (ACI-NA)
American Public Transportation Association (APTA)




Exhibit D. List of Stakeholders Interviewed
                                                                             19


EXHIBIT E. OBJECTIVES, SCOPE AND METHODOLOGY, AND
RELATED AUDIT COVERAGE

Objectives
In August 2006, Senator Coburn—then Chairman of the Senate Subcommittee on
Federal Financial Management, Government Information, and International
Security—requested that we conduct an independent analysis of the cost,
oversight, and impact of congressional earmarks.

Consistent with Senator Coburn’s request, we determined (1) the total number and
cost of earmarks within DOT for FY 2006, (2) the inclusion of earmarks included
in DOT’s annual planning and project evaluation processes, and (3) the overall
effects of earmarks on DOT’s mission and goals.

Scope and Methodology
Audit work for this report was conducted between December 2006 and July 2007
and was conducted in accordance with generally accepted Government Auditing
Standards as prescribed by the Comptroller General of the United States.

We initially surveyed the Office of the Secretary, Surface Transportation Board,
the Office of Inspector General, and the 10 Operating Administrations within DOT
to identify the total number and cost of the earmarks for FY 2006. Subsequently,
we reduced the scope of our audit and focused our analysis on congressional
earmarks within DOT programs administered by FHWA, FTA, and FAA because
these three Operating Administrations accounted for 99 percent of the earmarks
both in number and in dollar amount in FY 2006.

During the audit, we interviewed officials at FHWA, FTA, and FAA Headquarters
in Washington, DC. Respective to each Operating Administration, we obtained
computer-generated earmark data and relied on these to determine the total
number and cost of the earmarks. The earmark data were verified from our review
of the authorization and appropriation laws and corresponding congressional
reports. The figures used in our review reflect funding provided in the DOT
appropriations for 2006 and are prior to the Government-wide, 1-percent
rescission enacted in the Department of Defense Emergency Supplemental
Appropriations to Address Hurricanes in the Gulf of Mexico, and Pandemic
Influenza Act of 2006, Public Law Number 109-148.

We interviewed program managers and officials representing FTA, FHWA, and
FAA to better understand the program planning and project evaluation processes.
We also obtained and reviewed available annual processing plans and guidance
criteria relative to the programs of the Operating Administrations to determine


Exhibit E. Objectives, Scope and Methodology, and Related Audit Coverage
                                                                                         20

whether the earmarked projects bypassed the planning and evaluation processes.
We also interviewed stakeholders from eight associations that represented their
respective mode of transportation to get their perspective on how earmarks affect
their lines of business or organizations (see exhibit D).

To identify the universe of congressional earmarks within DOT, we examined
earmarks from different sources, including authorization and appropriation laws
and accompanying conference reports; DOT’s Operating Administrations’
programs, projects, or activities reports; and interviews with Operating
Administrations’ program managers, counsel, and policy officials.

To determine the effects of congressional earmarks on DOT’s mission and goals,
we interviewed the program managers and officials of FHWA, FTA, and FAA on
any existing impacts that the congressional earmarks may have on FY 2006
projects within their programs.

We also obtained and reviewed FHWA, FTA and FAA’s FY 2006 Presidential
Budget Submission and Estimates and its subsequent budget and funding
schedules as determined from the FY 2006 Appropriations Act to (1) compare the
earmarks against the funding level of the projects that each Operating
Administration requested funding for and the actual amounts that Congress
appropriated; (2) determine whether funding for planned and high priority projects
or programs was affected because of earmarks; (3) identify any shortfalls in
funding or scheduling delays for any projects and; (4) examine earmarks’ effect, if
any, on the current projects’ baseline costs.

Related Audit Coverage
There has been no prior audit coverage on congressional earmarks for all the
modes within DOT by the Office of Inspector General. However, the Office of
Inspector General reported in the Department of Transportation’s “Top Ten
Management Challenges”14 that FTA oversight funds would soon be insufficient
for all the large-dollar projects and numerous earmarked projects. The report
discusses that earmarking of appropriated funds could reduce the Department’s
and grantees’ flexibility to fund other important projects and to provide adequate
funding to complete projects.

On March 6, 2007, our report, “Opportunities To Free Up Unneeded FHWA
Funds for Use in Hurricane Recovery Efforts” (MH-2007-037), stated that there
were opportunities for FHWA to free up unneeded funds on highway projects in
five states affected by Hurricanes Katrina and Rita (Alabama, Florida, Louisiana,
Mississippi, and Texas). With congressional approval, these earmarked funds
could be freed up and re-deployed to reduce the cost of hurricane recovery efforts.
14
     OIG Report Number PT-2001-017, “Top Ten Management Challenges,” January 18, 2001.


Exhibit E. Objectives, Scope and Methodology, and Related Audit Coverage
                                                                                 21

Because states often need several years to develop a project before beginning
construction, we limited our audit to projects directed in legislation enacted on or
before October 23, 2000. We identified 19 projects with $10.7 million in
unneeded funds that could be re-directed to hurricane recovery efforts. We
recommended that FHWA: (1) coordinate with state transportation officials to
promptly identify how earmarked funds in the 19 projects we identified could best
be re-directed for use on hurricane recovery efforts and formally alert Congress of
the available funds; (2) complete implementation of legislation allowing states to
identify pre-1991 unneeded, earmarked funds and use them on other transportation
projects in the state without specific congressional action; and (3) provide
Congress with a list of all unneeded earmarked funds on a regular basis. FHWA
agreed with our recommendations.

On August 2, 2006, the Transportation Research Board sent a review on DOT’s
5-year strategic plan for Federal transportation research, development, and
technology (RD&T) to then Acting Department Secretary, Maria Cino. The
review was based on the contents and findings of a 15-member committee of
experts in transportation engineering, economics, system operations and
administration, environmental policy, and research that was convened under the
auspices of the Transportation Research Board. The review states that the DOT
faces constraints to strategic RD&T planning and investment especially because of
earmarking. The review also conveys to the Secretary that there was an increase
in legislation specifying that research centers, projects, or studies be located at
particular institutions and notes that even when RD&T funds are not earmarked in
this manner, authorizing legislation and appropriations language often contain
instructions designating the specific topics of RD&T, thus reducing DOT’s and its
Operating Administrations’ flexibility to allocate resources across strategic RD&T
priorities.




Exhibit E. Objectives, Scope and Methodology, and Related Audit Coverage
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
   Review of Congressional Earmarks Within Department of Transportation
                                Programs

                         Section 508 Compliant Presentation

Figure. Summary of Earmarks Within DOT Appropriations Fiscal Year 1996 to Fiscal
Year 2005

 • In fiscal year 1996, there were 167 earmarks valued at $789 million.
 • In fiscal year 1998, there were 147 earmarks valued at $1.23 billion.
 • In fiscal year 2000, there were 641 earmarks valued at $1.28 billion.
 • In fiscal year 2002, there were 1,493 earmarks valued at $3.22 billion.
 • In fiscal year 2004, there were 2,282 earmarks valued at $3.36 billion.
 • In fiscal year 2005, there were 2,094 earmarks valued at $3.27 billion.
Note: Number and valuation of earmarks do not include earmarks contained in authorization
acts for these years.
Source: Congressional Research Service

Table 1. Number and Amount of Earmarks within DOT for Fiscal Year 2006

 • In fiscal year 2006, FHWA had 6,556 earmarks valued at $5,675,100,200, which was
   15.49 percent of its total appropriation valued at $36,648,886,903.
 • In fiscal year 2006, FTA had 1,252 earmarks valued at $2,405,673,150, which was 28
   percent of its total appropriation valued at $8,590,365,000.
 • In fiscal year 2006, FAA had 204 earmarks valued at $408,340,000, which was 2.83
   percent of its total appropriation valued at $14,414,000,000.
 • The fiscal year 2006 subtotal for FHWA, FTA, and FAA was 8,012 earmarks valued at
   $8,489,113,350, which was 14.23 percent of their total appropriation valued at
   $59,653,251,903.
 • In fiscal year 2006, all other Operating Administrations had 44 earmarks valued at
   $55,890,000, which was 1.47 percent of their total appropriation valued at
   $3,795,558,000.
 • In fiscal year 2006 DOT had a total of 8,056 earmarks valued at $8,545,003,350, which
   was 13.47 percent of its appropriation valued at $63,448,809,903.
Exhibit A details the number and amount of earmarks within FHWA, FTA, FAA, programs
for FY 2006.
Source: DOT-OIG
Table 2. Number of Earmarked Projects Bypassing Agencies’ Review and Selection
Processes or States’ Planning and Programming Processes

 • For FHWA, we reviewed 7 programs with 260 earmarks valued at $1,176,278,000 and
   found that all 260 earmarks were not subject to the agency’s authority to review and
   select projects based on merit.
 • For FTA, we reviewed 3 programs with 1,209 earmarks valued at $2,357,688,150 and
   found that 1,175 earmarks were not subject to the agency’s authority to review and select
   projects based on merit.
 • For FAA, we reviewed 12 programs with 182 earmarks valued at $311,690,000 and
   found that 180 earmarks were not subject to the agency’s authority to review and select
   projects based on merit.
 • For FHWA, FTA, and FAA, we reviewed a subtotal of 22 programs with 1,651 earmarks
   valued at $3,845,656,150 and found that 1,615 earmarks were not subject to the agencies’
   authority to review and select projects based on merit.
 • For FHWA, we reviewed 5 programs with 6,109 earmarks valued at $4,202,447,200 and
   found that all 6,109 earmarks bypassed the states’ normal planning and programming
   processes.
 • The grand total is as follows: We reviewed a total of 27 programs with 7, 760 earmarks
   valued at $4,202,447, 200 and found that 7, 724 earmarks either were not subject to the
   agencies’ authority to review and select projects based on merit or bypassed the states’
   normal planning and programming processes.
Exhibit B details by program earmarked projects that were either not subject to FHWA, FTA
and FAA’s statutory authority to award capital and research grants based on merit or
bypassed the states’ normal planning and programming processes.
Source: DOT-OIG

Exhibit A. Total Number and Dollar Amount of Earmarks by Program Within DOT
for Fiscal Year 2006

Item 1. The following are programs within the Federal Highway Administration:
 • Projects of National and Regional Significance had 25 earmarks totaling $355,800,000.
 • National Corridor Infrastructure Improvement had 33 earmarks totaling $389,600,000
 • Freight Intermodal Distribution Pilot Grant had 6 earmarks totaling $6,000,000.
 • High Priority Projects had 5,091 earmarks totaling $2,966,400,000.
 • Transportation Improvement Projects had 466 earmarks totaling $511,047,200.
 • Stand Alone Projects had 12 earmarks totaling $43,950,000.
 • Bridge Set-Asides had 9 earmarks totaling $100,000,000.
 • Surface Transportation Research, Development, and Deployment (STRDD) had 43
   earmarks totaling $234,803,000 (note: STRDD designations in SAFETEA-LU exceeded
   the authorized funding level of $196.4 million for FY 2006 through FY 2009 [in FY 2006
   by $38.4 million, requiring a 16.355-percent cut in all STRDD programs]).
 • Highway Priority Projects had 24 earmarks totaling $25,000,000.
 • Surface Transportation Projects had 519 earmarks totaling $600,000,000.
 • Interstate Maintenance Discretionary Program had 65 earmarks totaling $100,000,000.
 • Public Lands Highways Discretionary Program had 77 earmarks totaling $95,200,000.
 • Ferry Boats Discretionary had 26 earmarks totaling $35,000,000.
 • Training and Education had 7 earmarks totaling $27,650,000 (note: the Training and
   Education program also had $27.65 million in “earmarks” but was authorized at only
   $26.7 million, requiring a 3.436-percent cut in all Training and Education programs).
 • University Transportation Research had 52 earmarks totaling $76,400,000 (note:
   University Transportation Research program included $76.4 million in “earmarks” but
   was authorized at only $69.7 million, requiring an 8.770-percent cut in all University
   Transportation Research programs).
 • Intelligent Transportation Systems had 3 earmarks totaling $13,000,000.
 • Bureau of Transportation Statistics had 1 earmark totaling $500,000.
 • Transportation and Community and System Preservation had 94 earmarks totaling
   $61,250,000.
 • Appalachian Development Highway System had 1 earmark totaling $20,000,000.
 • Other Transportation Projects had 2 earmarks totaling $13,500,000.
Subtotal for Federal Highway Administration programs in FY 2006 was 6,556 earmarks
totaling $5,675,100,200.
Item 2. The following are programs within the Federal Transit Administration:
 • Bus and Bus Facilities had 1,097 earmarks totaling $813,903,150.
 • New Starts had 66 earmarks totaling $1,503,000,000.
 • National Research had 46 earmarks totaling $40,785,000.
 • University Transportation Centers had 8 earmarks totaling $7,000,000.
 • National Transit Institute had 1 earmark totaling $4,300,000.
 • Alternative Analysis had 18 earmarks totaling $18,900,000.
 • Clean Fuels had 16 earmarks totaling $17,785,000.
Subtotal for Federal Transit Administration programs in FY 2006 was 1,252 earmarks
totaling $2,405,673,150.
Item 3. The following are accounts within the Federal Aviation Administration:
 • Operations Account had 13 earmarks totaling $28,995,000.
 • Facilities & Equipment (F&E) Account had 52 earmarks totaling $169,200,000.
 • Grants-In-Aid to Airports Account had 125 earmarks totaling $200,900,000.
 • Research, Engineering, and Development Account had 14 earmarks totaling $9,245,000.
Subtotal for Federal Aviation Administration Accounts for FY 2006 was 204 earmarks
totaling $408,340,000.
Subtotal for other Operation Administrations within DOT for FY 2006 was 44 earmarks
totaling $55,890,000.
The grand total for the total number and dollar amount of earmarks by program within DOT
for fiscal year 2006 was 8,056 earmarks totaling $8,545,003,350.
Source: DOT-OIG

Exhibit B. Number of FY 2006 Earmarked Projects That Bypassed Established Review
and Selection Processes or Planning and Programming Processes

Item 1. The following are programs within the Federal Highway Administration:
 • Projects of National and Regional Significance had 25 earmarks reviewed totaling
   $355,800,000. The number of earmarks that bypassed the agencies’ authority to review
   and select projects based on merit was 25. The number of earmarks that bypassed the
   states’ normal planning and programming processes was 0.
 • National Corridor Infrastructure Improvement had 33 earmarks reviewed totaling
   $389,600,000. The number of earmarks that bypassed the agencies’ authority to review
   and select projects based on merit was 33. The number of earmarks that bypassed the
   states’ normal planning and programming processes was 0.
 • Freight Intermodal Distribution Pilot Grant had 6 earmarks reviewed totaling $6,000,000.
   The number of earmarks that bypassed the agencies’ authority to review and select
   projects based on merit was 6. The number of earmarks that bypassed the states’ normal
   planning and programming processes was 0.
 • Interstate Maintenance Discretionary Program had 65 earmarks reviewed totaling
   $100,000,000. The number of earmarks that bypassed the agencies’ authority to review
   and select projects based on merit was 65. The number of earmarks that bypassed the
   states’ normal planning and programming processes was 0.
 • Public Lands Highways Discretionary Program had 77 earmarks reviewed totaling
   $95,200,000. The number of earmarks that bypassed the agencies’ authority to review
   and select projects based on merit was 77. The number of earmarks that bypassed the
   states’ normal planning and programming processes was 0.
 • Ferry Boats Discretionary Program had 26 earmarks reviewed totaling $35,000,000. The
   number of earmarks that bypassed the agencies’ authority to review and select projects
   based on merit was 26. The number of earmarks that bypassed the states’ normal
   planning and programming processes was 0.
 • Surface Transportation Research, Development, and Deployment had 28 earmarks
   reviewed totaling $194,678,000. The number of earmarks that bypassed the agencies’
   authority to review and select projects based on merit was 28. The number of earmarks
   that bypassed the states’ normal planning and programming processes was 0.
 • High Priority Projects had 24 earmarks reviewed totaling $25,000,000. The number of
   earmarks that bypassed the agencies’ authority to review and select projects based on
   merit was 0. The number of earmarks that bypassed the states’ normal planning and
   programming processes was 24.
 • Surface Transportation Projects had 519 earmarks reviewed totaling $600,000,000. The
   number of earmarks that bypassed the agencies’ authority to review and select projects
   based on merit was 0. The number of earmarks that bypassed the states’ normal planning
   and programming processes was 519.
 • High Priority Projects had 5,091 earmarks reviewed totaling $2,966,400,000. The
   number of earmarks that bypassed the agencies’ authority to review and select projects
   based on merit was 0. The number of earmarks that bypassed the states’ normal planning
   and programming processes was 5,091.
 • Transportation Improvement Projects had 466 earmarks reviewed totaling $511,047,200.
   The number of earmarks that bypassed the agencies’ authority to review and select
   projects based on merit was 0. The number of earmarks that bypassed the states’ normal
   planning and programming processes was 466.
 • Bridge Set-Asides had 9 earmarks reviewed totaling $100,000,000. The number of
   earmarks that bypassed the agencies’ authority to review and select projects based on
   merit was 0. The number of earmarks that bypassed the states’ normal planning and
   programming processes was 9.
Subtotal for Federal Highway Administration programs in FY 2006 was 6,369 earmarks
reviewed totaling $5,378,725,200. The number of earmarks that bypassed the agencies’
authority to review and select projects based on merit was 260. The number of earmarks that
bypassed the states’ normal planning and programming processes was 6,109.
Item 2. The following are programs within the Federal Transit Administration:
 • Bus and Bus Facilities had 1,097 earmarks reviewed totaling $813,903,150. The number
   of earmarks that bypassed the agencies’ authority to review and select projects based on
   merit was 1,097. The number of earmarks that bypassed the states’ normal planning and
   programming processes was 0.
 • New Starts had 66 earmarks reviewed totaling $1,503,000,000. The number of earmarks
   that bypassed the agencies’ authority to review and select projects based on merit was 32.
   The number of earmarks that bypassed the states’ normal planning and programming
   processes was 0.
 • National Research had 46 earmarks reviewed totaling $40,785,000. The number of
   earmarks that bypassed the agencies’ authority to review and select projects based on
   merit was 46. The number of earmarks that bypassed the states’ normal planning and
   programming processes was 0.
Subtotal for Federal Transit Administration programs in FY 2006 was 1,209 earmarks
reviewed totaling $2,357,688,150. The number of earmarks that bypassed the agencies’
authority to review and select projects based on merit was 1,175. The number of earmarks
that bypassed the states’ normal planning and programming processes was 0.
Item 3. The following are accounts within the Federal Aviation Administration:
 • Operations Account had 13 earmarks reviewed totaling $28,995,000. The number of
   earmarks that bypassed the agencies’ authority to review and select projects based on
   merit was 12. The number of earmarks that bypassed the states’ normal planning and
   programming processes was 0.
 • Facilities & Equipment (F&E) Account had 30 earmarks reviewed totaling $72,550,000.
   . The number of earmarks that bypassed the agencies’ authority to review and select
   projects based on merit was 29. The number of earmarks that bypassed the states’ normal
   planning and programming processes was 0.
 • Grants-In-Aid to Airports Account had 125 earmarks reviewed totaling $200,900,000.
   The number of earmarks that bypassed the agencies’ authority to review and select
   projects based on merit was 125. The number of earmarks that bypassed the states’
   normal planning and programming processes was 0.
 • Research, Engineering, and Development Account had 14 earmarks reviewed totaling
   $9,245,000. The number of earmarks that bypassed the agencies’ authority to review and
   select projects based on merit was 14. The number of earmarks that bypassed the states’
   normal planning and programming processes was 0.
Subtotal for Federal Aviation Administration accounts for FY 2006 was 182 earmarks
reviewed totaling $311,690,000. The number of earmarks that bypassed the agencies’
authority to review and select projects based on merit was 180. The number of earmarks that
bypassed the states’ normal planning and programming processes was 0.
The grand total was 7,760 earmarks reviewed totaling $8,048,103,350. The number of
earmarks that bypassed the agencies’ authority to review and select projects based on merit
was 1,615. The number of earmarks that bypassed the states’ normal planning and
programming processes was 6,109.
Source: DOT OIG

Exhibit C. OIG Analysis of Impact of Earmarks on Agencies’ Programs

Item 1. The following are programs within the Federal Highway Administration:
 • Projects of National and Regional Significance. Did earmarks reduce funding for the
   states’ core transportation programs? No. Did earmarks coincide with Operating
   Administration’s strategic research goals? N/A. Are many low priority earmarked
   projects being funded over higher priority projects? Unknown. Are some earmark
   projects being funded that would otherwise be ineligible? Yes.
• National Corridor Infrastructure Improvement. Did earmarks reduce funding for the
  states’ core transportation programs? No. Did earmarks coincide with Operating
  Administration’s strategic research goals? N/A. Are many low priority earmarked
  projects being funded over higher priority projects? Unknown. Are some earmark
  projects being funded that would otherwise be ineligible? Unknown.
• Freight Intermodal Distribution Pilot Grant. Did earmarks reduce funding for the states’
  core transportation programs? No. Did earmarks coincide with Operating
  Administration’s strategic research goals? N/A. Are many low priority earmarked
  projects being funded over higher priority projects? Unknown. Are some earmark
  projects being funded that would otherwise be ineligible? Unknown.
• High Priority Projects. Did earmarks reduce funding for the states’ core transportation
  programs? Yes. Did earmarks coincide with Operating Administration’s strategic
  research goals? N/A. Are many low priority earmarked projects being funded over
  higher priority projects? Yes. Are some earmark projects being funded that would
  otherwise be ineligible? Yes. (Note: Based on agency officials’ understanding of state
  priorities for surface transportation funding.)
• Transportation Improvements. Did earmarks reduce funding for the states’ core
  transportation programs? No. Did earmarks coincide with Operating Administration’s
  strategic research goals? N/A. Are many low priority earmarked projects being funded
  over higher priority projects? Yes. Are some earmark projects being funded that would
  otherwise be ineligible? Yes. (Note: Based on agency officials’ understanding of state
  priorities for surface transportation funding.)
• Bridge Set-Asides. Did earmarks reduce funding for the states’ core transportation
  programs? No. Did earmarks coincide with Operating Administration’s strategic
  research goals? N/A. Are many low priority earmarked projects being funded over
  higher priority projects? N/A. Are some earmark projects being funded that would
  otherwise be ineligible? N/A.
• Surface Transportation Research, Development, and Deployment. Did earmarks reduce
  funding for the states’ core transportation programs? No. Did earmarks coincide with
  Operating Administration’s strategic research goals? Yes. Are many low priority
  earmarked projects being funded over higher priority projects? Yes. Are some earmark
  projects being funded that would otherwise be ineligible? No.
• Highway Priority Projects. Did earmarks reduce funding for the states’ core
  transportation programs? Yes. Did earmarks coincide with Operating Administration’s
  strategic research goals? N/A. Are many low priority earmarked projects being funded
  over higher priority projects? Yes. Are some earmark projects being funded that would
  otherwise be ineligible? Yes. (Note: Based on agency officials’ understanding of state
  priorities for surface transportation funding.)
• Surface Transportation Projects. Did earmarks reduce funding for the states’ core
  transportation programs? Yes. Did earmarks coincide with Operating Administration’s
  strategic research goals? N/A. Are many low priority earmarked projects being funded
  over higher priority projects? Yes. Are some earmark projects being funded that would
   otherwise be ineligible? Yes. (Note: Based on agency officials’ understanding of state
   priorities for surface transportation funding.)
 • Interstate Maintenance Discretionary Program. Did earmarks reduce funding for the
   states’ core transportation programs? No. Did earmarks coincide with Operating
   Administration’s strategic research goals? N/A. Are many low priority earmarked
   projects being funded over higher priority projects? Yes. Are some earmark projects
   being funded that would otherwise be ineligible? Yes. (Note: Based on agency officials’
   understanding of state priorities for surface transportation funding.)
 • Public Lands Highways Discretionary. Did earmarks reduce funding for the states’ core
   transportation programs? No. Did earmarks coincide with Operating Administration’s
   strategic research goals? N/A. Are many low priority earmarked projects being funded
   over higher priority projects? Yes. Are some earmark projects being funded that would
   otherwise be ineligible? Yes. (Note: Based on agency officials’ understanding of state
   priorities for surface transportation funding.)
 • Ferry Boats & Ferry Terminal Facilities. Did earmarks reduce funding for the states’
   core transportation programs? No. Did earmarks coincide with Operating
   Administration’s strategic research goals? N/A. Are many low priority earmarked
   projects being funded over higher priority projects? Yes. Are some earmark projects
   being funded that would otherwise be ineligible? Yes. (Note: Based on agency officials’
   understanding of state priorities for surface transportation funding.)
Item 2. The following are programs within the Federal Transit Administration:
 • Bus and Bus Facilities. Did earmarks reduce funding for the states’ core transportation
   programs? N/A. Did earmarks coincide with Operating Administration’s strategic
   research goals? N/A. Are many low priority earmarked projects being funded over
   higher priority projects? Unknown. Are some earmark projects being funded that would
   otherwise be ineligible? Yes.
 • New Starts. Did earmarks reduce funding for the states’ core transportation programs?
   N/A. Did earmarks coincide with Operating Administration’s strategic research goals?
   N/A. Are many low priority earmarked projects being funded over higher priority
   projects? Yes. Are some earmark projects being funded that would otherwise be
   ineligible? Yes.
 • National Research. Did earmarks reduce funding for the states’ core transportation
   programs? No. Did earmarks coincide with Operating Administration’s strategic
   research goals? No. Are many low priority earmarked projects being funded over higher
   priority projects? Yes. Are some earmark projects being funded that would otherwise be
   ineligible? Yes.
Item 3. The following are accounts within the Federal Transit Administration:
 • Operations Account. Did earmarks reduce funding for the states’ core transportation
   programs? N/A. Did earmarks coincide with Operating Administration’s strategic
   research goals? N/A. Are many low priority earmarked projects being funded over
   higher priority projects? No. Are some earmark projects being funded that would
   otherwise be ineligible? No.
 • Facilities & Equipment (F&E) Account. Did earmarks reduce funding for the states’ core
   transportation programs? N/A. Did earmarks coincide with Operating Administration’s
   strategic research goals? N/A. Are many low priority earmarked projects being funded
   over higher priority projects? Yes. Are some earmark projects being funded that would
   otherwise be ineligible? No.
 • Grants-In-Aid to Airports Account. Did earmarks reduce funding for the states’ core
   transportation programs? No. Did earmarks coincide with Operating Administration’s
   strategic research goals? N/A. Are many low priority earmarked projects being funded
   over higher priority projects? Yes. Are some earmark projects being funded that would
   otherwise be ineligible? No.
 • Research, Engineering, and Development Account. Did earmarks reduce funding for
   the states’ core transportation programs? N/A. Did earmarks coincide with Operating
   Administration’s strategic research goals? Yes. Are many low priority earmarked
   projects being funded over higher priority projects? Yes. Are some earmark projects
   being funded that would otherwise be ineligible? No.
Note: The amount of High Priority Projects (HPP) funding a state receives is considered in
the calculation of the state’s equity bonus apportionment. For most states, the receipt of HPP
funds reduces the amount of its equity bonus funding.
Note: According to FHWA officials, there are no eligibility requirements for the Bridge Set-
Asides program. Rather, the statute expressly designates projects.
Note: Unknown = Unknown to agency officials.
Note: Some projects may not meet eligibility requirements of the specific program from
which funding is available or they may mot meet other Title 23 eligibility requirements.
Source: DOT-OIG
